<html>
<title> - CALLING FOR THE RELEASE OF UNITED STATES CITIZEN SAEED ABEDINI AND CONDEMNING THE GOVERNMENT OF IRAN FOR ITS PERSECUTION OF RELIGIOUS MINORITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  CALLING FOR THE RELEASE OF UNITED STATES CITIZEN SAEED ABEDINI AND 
  CONDEMNING THE GOVERNMENT OF IRAN FOR ITS PERSECUTION OF RELIGIOUS 

                               MINORITIES

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON

                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                              H. Res. 147

                               __________

                           NOVEMBER 13, 2013

                               __________

                           Serial No. 113-77

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
85-553                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 147, Calling for the release of United States citizen 
  Saeed Abedini and condemning the Government of Iran for its 
  persecution of religious minorities............................     2

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Prepared statement...............     5

                                APPENDIX

Markup notice....................................................    10
Markup minutes...................................................    11
Markup summary...................................................    12


  CALLING FOR THE RELEASE OF UNITED STATES CITIZEN SAEED ABEDINI AND 
  CONDEMNING THE GOVERNMENT OF IRAN FOR ITS PERSECUTION OF RELIGIOUS 
                               MINORITIES

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. Pursuant to notice, for purposes of 
markup, I call up H. Res. 147, calling for the release of 
United States citizen Saeed Abedini, and condemning the 
Government of Iran for its persecution of religious minorities.
    The clerk will read.
    Mr. Pena. H. Res. 147, calling for the release of United 
States citizen Saeed Abedini, and condemning the Government of 
Iran----
    Ms. Ros-Lehtinen. Without objection, the measure is 
considered as read and open for amendment at any point.
    [H. Res. 147 follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              ----------                              


    Ms. Ros-Lehtinen. I thank the author of this bill, Bill 
Cassidy, for bringing forth this important legislation this 
afternoon. Despite Rouhani's rhetoric and his charm offensive, 
every indication is that he continues in his predecessor's 
footsteps and has not halted or even curbed the regime's 
systematic and widespread human rights violations.
    Since he took office, the Iranian regime has conducted over 
200 executions, with nearly 20 being conducted in public, and 
has renewed its repression of the media and civil society.
    Religious minorities have also gotten no reprieve from the 
regime. Last month, four Iranian Christians were sentenced to 
80 lashes for drinking sacramental wine during communion, and 
this past summer an Iranian Christian convert was sentenced to 
10 years in prison for distributing Bibles.
    This past August an American citizen, Pastor Saeed Abedini, 
was convicted and given an 8-year sentence for what the regime 
said was undermining the government. In reality, he was 
arrested and convicted for preaching his Christian faith. 
Earlier this month Iranian authorities transferred Pastor Saeed 
to a notorious prison that is reserved for Iran's most violent 
criminals, and where his life is in danger on a daily basis.
    These are not isolated incidents, and it is time for the 
Iranian regime to end its persecution of religious minorities 
and immediately release Saeed and others like him. By passing 
H. Res. 147, we will send a strong message to Pastor Saeed, his 
family, and to the Iranian people who wish to practice their 
faiths openly and freely. We stand with them during this time 
of despair, and we will continue to press for respect of human 
rights in Iran. Let's bring Pastor Saeed home so that he can 
reunite with his wife and two children, where he belongs.
    [The prepared statement of Ms. Ros-Lehtinen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Ms. Ros-Lehtinen. I would now like to recognize any member 
from the Democratic side to speak for Mr. Deutch in support of 
the resolution if they wish.
    Fearless Leader Cicilline.
    Mr. Cicilline. Thank you, Madam Chair, and I would like to 
also compliment Mr. Cassidy and say what an important piece of 
legislation this is, and how important it is that we send a 
very strong message on this issue. And I thank the chair for 
convening the hearing and calling for the markup.
    Ms. Ros-Lehtinen. Thank you, sir.
    I would like to recognize any members who seek recognition 
on the Republican side if they wish to speak.
    Mr. Cotton of Arkansas is recognized.
    Mr. Cotton. I am proud to sponsor this legislation, as 
well, calling for the release of Pastor Saeed Abedini, who has 
been arrested and in prison since last year. Pastor Abedini 
traveled to Iran many times over the last 4 years to open an 
orphanage and preach his Christian faith, all with the approval 
of the Iranian regime. Since he has been arrested, he has been 
subject to brutal beatings for nothing more than ministering, 
and now he has been transferred to Karaj, a notorious prison 
where murder is an all too common occurrence.
    I hope that our administration strongly urges the Iranian 
regime to release Pastor Abedini so he can be reunited with his 
family. Unfortunately, though, his case is not isolated. The 
Iranian regime is a totalitarian bureaucracy that persecutes 
Christians and people of other faiths as well. This is not 
something that they do just as an accident of the nature of the 
regime. This is in the very heart of their regime to suppress 
religious freedom of all people in violation of numerous 
international obligations and treaties. So we have to ensure 
that Pastor Abedini is released, but also continue to pressure 
Iran to respect the natural rights of every one of its 
citizens.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    And any other members wish to seek recognition? If not, we 
would like to turn to the sponsor, the author of this important 
resolution, so he can be heard. The gentleman is recognized.
    Mr. Cassidy. Thank you, Madam Chair. Thank you, Mr. Ranking 
Member. Thank you for having me here today to discuss this 
resolution, and I appreciate the work that the committee has 
done on this.
    Mr. Abedini is an American, an American who, while he lived 
in Iran, converted from Islam to Christianity. He was arrested 
in July 2012 when he was visiting family and working in a 
nonsectarian orphanage. The Revolutionary Guard arrested him on 
charges of activities disruptive to the state; however, when he 
was sentenced to 8 years in prison, it was due to missionary 
activities which took place a decade earlier when such 
activities were legal in Iran.
    During his imprisonment. Mr. Abedini reportedly has 
suffered constant pain, internal bleeding, and has not received 
sufficient medical care. On more than one occasion, he was 
taken to the hospital, where the physician recommended he be 
admitted and the government would not allow this. On another 
occasion, a nurse refused to touch him because he is a 
Christian. As a physician I find that particularly offensive.
    To further underline the immediacy of the situation, just 
last week Mr. Abedini was transferred to the notorious prison, 
Rajai Shahr, a prison facility where political prisoners simply 
disappear and/or are killed by other prisoners. He has 
reportedly been placed in a ward that houses murderers, is in a 
cell with other death-row inmates and is not allowed visitors. 
When Mr. Abedini's father went to visit, he was denied entry, 
and the blankets and medications he brought to treat his son's 
internal bleeding were taken away. His wife Naghmeh has said 
that she is more concerned now about his safety than at any 
other time during his imprisonment.
    This is an American being held hostage by the Government of 
Iran. I ask that you pass this resolution out of committee so 
that we can increase pressure on Iran to release Mr. Abedini 
from his wrongful imprisonment and allow him to return back to 
the United States where he is a citizen and to be reunited with 
his wife and his young children.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Seeing no further requests for time, and no amendments 
being offered, the chair now moves that the committee agree to 
H. Res. 147.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
measure is agreed to.
    Without objection, House Res. 147 is ordered favorably 
reported to the full committee, and the staff is directed to 
make any technical and conforming changes.
    Thank you, Mr. Cassidy, for this bill.
    [Whereupon, at 2:35 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<Hoarfrost><brit-pound><acctof><acctof>a<natural><variable>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
